December 27, 2012

The Honorable Darrell Issa
Chairman, Committee on Oversight
   and Government Reform
United States House of Representatives
Washington, D.C. 20515

The Honorable Elijah E. Cummings
Ranking Member, Committee on Oversight
  and Government Reform
Washington, D.C. 20515

Dear Chairman Issa and Ranking Member Cummings:

Thank you for your December 5, 2012, letter requesting that the Government Printing
Office (GPO) Office of Inspector General (OIG) provide our 10 highest priority open
recommendations—5 short-term and 5 long-term—to improve agency efficiency and
reduce waste. You also asked that we describe whether and what ways agency
management solicits our input about how to improve efficiency and reduce waste.

We support GPO through our audits, investigations, and other reviews as it carries out
its core mission of Keeping America Informed by producing, protecting, preserving, and
distributing the official publications and information products of the Federal Government.
We make recommendations that result from our audits, investigations, and other
reviews pursuant to the GPO Inspector General Act of 1988, title II of Public Law 100-
504 (October 18, 1988). Open recommendations include those for which GPO has
either (1) concurred and proposed action plans but has yet to complete implementation,
(2) completed the planned actions but has yet to provide us with supporting
documentation, or (3) nonconcurred.

Per your request, we define as short-term those recommendations that can be achieved
by December 2013 and long-term as those recommendations that can be achieved after
December 2013. As of November 30, 2012, we have identified a total of 89 open
recommendations, which were included in 29 audit reports issued between 2007 and
2012. We considered several criteria in identifying the following open recommendations
as the highest priorities, including their impact on GPO’s transformation to a digital
platform, economy or efficiency; documented vulnerabilities; dollar implications; and the
ability of the GPO to effect change in these areas.
The Honorable Darrell Issa, Chairman
The Honorable Elijah E. Cummings, Ranking Member
House Committee on Oversight and Government Reform
December 27, 2012
Page 2 of 5

The order in which the recommendations are listed does not indicate any order of
priority within those lists. Your request along with our response follows.

1. Identify your office’s five highest-priority short-term recommendations to improve
   agency efficiency and reduce waste. For purposes of this request, please consider
   any recommendation that could be implemented within one year to be a short-term
   recommendation.

   •   OIG Report: Maintaining Effective Control over Employee Overtime,
       Report No.12-08, dated 2012. (Funds Put To Better Use: $2,9 million) We
       recommended modifying Directive 640.7D, “General Pay Administration,” dated
       April 2008, requiring that supervisors obtain approval before asking employees to
       work overtime. GPO agreed with the recommendation and is in the process of
       taking action to close the recommendation.

   •   OIG Report: Selected Aspects of GPO Time and Attendance and Payroll
       Administration, Report No. 12-01, dated 2011. (Funds Put To Better Use: $372,717)
       We recommended modifying Directive 640.7D, “General Pay Administration,”
       dated April 2008, (1) to direct all potential overtime-authorizing officials to ensure
       that any overtime authorized does not cause an employee to exceed the
       biweekly pay cap, (2) assign a specific person or office the responsibility for
       monitoring agency compliance with the biweekly pay limitations and
       implementing claims against those who exceed the limitation, and (3) clearly
       convey the consequences of exceeding the salary caps – such as, managers
       being subject to corrective action for authorizing pay exceeding the salary cap
       and employees being subject to debt claims for overpayments. GPO agreed with
       the recommendation and is in the process of taking action to close the
       recommendation.

   •   OIG Report: Independent Audit of Harris Corporation - FDsys Master Integrator,
       Report No. 12-24, dated 2012. We recommended recovering questioned costs
       of $1,178,814 for claimed costs for payments exceeding contract funding limits,
       overtime costs not approved as required by the contract, and unreasonable costs
       related to field premiums and cost of living allowance. GPO agreed with the
       recommendation and is in the process of taking action to close the
       recommendation.
The Honorable Darrell Issa, Chairman
The Honorable Elijah E. Cummings, Ranking Member
House Committee on Oversight and Government Reform
December 27, 2012
Page 3 of 5

   •   OIG Report: Audit of GPO’s Suitability Process for Passport Production, Report
       Number: 12-17, dated 2012. We recommended updating policies and
       determining the proper risk level and position classification for all employees that
       have access to passport production facilities. If needed, complete the appropriate
       background investigations. GPO agreed with the recommendation and is in the
       process of taking action to close the recommendation.

   •   OIG Report: GPO's Compliance with Federal Information Security Management
       Act of 2002 (FISMA), Report No. 10-03, dated 2010. We recommended
       completing a risk assessment for its major applications and systems in
       accordance with the guidance outlined in National Institute of Standards and
       Technology (NIST) Special Publication (SP) 800-30, "Risk Management Guide
       for Information Technology Systems." Further, systems owners should accept
       any residual risk associated with the assessments. The acceptance of residual
       risk should be reviewed and formally documented. GPO is in the process of
       reviewing risk assessments and system security plans associated with major,
       minor, and general support systems in order to better evaluate the status of
       these systems.

2. Identify your office’s five highest-priority long-term recommendations to improve
   agency efficiency and reduce waste. For purposes of this request, please consider
   any recommendation that cannot be implemented within one year to be a long-term
   recommendation.

   •   OIG Report: Enhanced Architecture Maturity Could Better Guide GPO’s
       Transformation, Report No. 12-19, dated 2012. We recommended identifying,
       developing, and implementing a framework to evolve GPO’s Enterprise
       Architecture and its use to support GPO’s transformation and optimization. GPO
       agreed with the recommendation and is in the process of taking action to close
       the recommendation.

   •   OIG Report: Audit of Computer Security: Handling a Denial of Service Incident,
       Report No. 12-13, dated 2012. We recommended conducting Security
       Certification and Accreditation (C&A) activities to reflect the risk management
       framework approach established in NIST Special Publication 800-37, “Guide for
       the Security Certification and Accreditation of Federal Information Systems. This
       recommendation is unresolved. However, GPO is in the process of reviewing risk
       assessments and system security plans associated with major, minor, and
       general support systems in order to better evaluate the status of information
       systems.
The Honorable Darrell Issa, Chairman
The Honorable Elijah E. Cummings, Ranking Member
House Committee on Oversight and Government Reform
December 27, 2012
Page 4 of 5

•   OIG Report: Operational Enhancements Could Further Improve the
    Congressional Billing Process, Report No. 12-16, dated 2012. We recommended
    establishing a performance measure for billing accuracy. We also recommended
    establishing and implementing a formal process for periodically assessing and
    monitoring the accuracy of billing charges made to the appropriation that will
    ensure that the controls are operating as designed and achieving their intended
    purpose. (Funds Put To Better Use: $2.5 million) GPO agreed with the
    recommendation and is in the process of taking action to close the
    recommendation.

•   OIG Report: Enhanced Architecture Maturity Could Better Guide GPO’s
    Transformation, Report No. 12-19, dated 2012. We recommended identifying,
    developing, and implementing a framework to evolve GPO’s FDsys architecture
    and ensure it is aligned with GPO’s Enterprise Architecture. GPO agreed with
    the recommendation and is in the process of taking action to close the
    recommendation.

•   OIG Report: Final Report FY 2011 Management Advisory Comments, Report No.
    12-07, dated 2012. We made recommendations associated with the
    Consolidated Financial Statement for Fiscal Year 2011 and the financial
    accounting associated with preparing the statements. We recommended that
    GPO continue to conduct periodic assessments of all inactive deposit accounts
    to determine the appropriate actions for these accounts. We recommended
    improving internal controls and system of record to ensure that: 1) customer
    information is appropriately retained and updated periodically and 2) customers
    are contacted after a specified period of inactivity to determine if deposits should
    be returned. We recommended strengthening internal controls surrounding the
    timely and accurate recording of inventory transactions. We recommended that
    GPO identify and use accurate subsidiary ledger when performing reconciliations
    or analyzing accounts. We recommended improving monitoring controls over the
    monthly Government Accounts Receivable reconciliation process to ensure that
    all differences identified during the monthly reconciliation process are
    investigated and resolved in a timely manner. We recommended identifying all
    accounts receivable accounts and ensure they are all appropriately subjected to
    the allowance calculation. We recommended strengthening internal controls
    over the disposal process and that GPO more carefully review the information
    needed to process bills. GPO agreed with the recommendations and is in the
    process of taking action to close the recommendation.
The Honorable Darrell Issa, Chairman
The Honorable Elijah E. Cummings, Ranking Member
House Committee on Oversight and Government Reform
December 27, 2012
Page 5 of 5

3. Describe whether and in what ways agency management solicits input from you and
   your office about how to improve efficiency and reduce waste.

   We are pleased to report that the GPO involves our office in various ways to aid its
   efforts to improve efficiency and reduce waste. These include requesting reviews of
   specific issues; soliciting our ideas on how to improve its practices during the course
   of audits; providing input as part of our annual planning and longer-term strategic
   planning processes; and input is solicited during the Inspector General’s biweekly
   with the Acting Public Printer. In addition, we meet with senior management from
   each Business Unit to discuss top audit priorities for combating waste, fraud, and
   abuse as well as ways to improve program efficiency.

We continue to work closely with managers at GPO to improve operations and maintain
a long-standing record in delivering a world-class service to our Nation. We appreciate
GPO’s responsiveness to our findings and recommendations and its commitment to
corrective actions when needed. We continue to note that Senior Managers are actively
engaged in working with the OIG to enhance awareness of and involvement in closing
OIG recommendations.

If you have any questions or need further information, please contact me at
(202) 512‐0039.


Sincerely,




Michael A. Raponi
Inspector General
